                 Additional Efforts Are Needed to Ensure
               Taxpayer Rights Are Protected When Manual
                            Levies Are Issued

                                     April 2004

                       Reference Number: 2004-30-094




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      April 29, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                  (for) Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Additional Efforts Are Needed to Ensure
                                    Taxpayer Rights Are Protected When Manual Levies Are Issued
                                    (Audit # 200330031)


       This report presents the results of our review to determine whether the Internal
       Revenue Service (IRS) has complied with 26 United States Code (U.S.C.) Section (§)
       6330, Notice and Opportunity for Hearing Before Levy.1 The IRS Restructuring and
       Reform Act of 1998 (RRA 98)2 requires the IRS to notify taxpayers at least 30 days
       before initiating any levy action, to give taxpayers an opportunity to formally appeal the
       proposed levy. Specifically, we determined whether the IRS has sufficient controls in
       place to ensure taxpayers are advised of their right to a hearing at least 30 days prior to
       levy action. This is the sixth annual report the Treasury Inspector General for Tax
       Administration (TIGTA) has issued in compliance with the RRA 98 to determine whether
       the IRS is complying with legal guidelines over the issuance of levies.
       Prior TIGTA reports have recognized that the IRS has implemented tighter controls over
       the issuance of systemically generated levies. This was due primarily to the
       development of systemic controls in both the Automated Collection System3 and




       1
         26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
       Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax
       Relief Act of 2001, Pub. L. No. 107-134, 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of
       2000, Pub. L. No. 106-554, 114 Stat. 2763.
       2
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       3
         A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
       delinquent taxpayers who have not complied with previous notices.
                                                         2

Integrated Collection System (ICS)4 to prevent a levy from being generated unless there
were at least 30 days between the date taxpayers received notice of their appeal rights
and the date of the proposed levy. Our testing of these controls indicated that they
continue to function effectively.
However, last year’s report5 also discussed the fact that revenue officers sometimes
issued manual levies to taxpayers who were not properly notified of their appeal rights.
We recommended the IRS require managers to review and approve all manual levies
prepared by revenue officers in order to ensure taxpayers are properly advised of their
appeal rights. The IRS declined to implement this recommendation but did issue a
memorandum on June 20, 2003, reminding revenue officers that proper notification
must be given to a taxpayer before a manual levy is issued. Our review of manual
levies issued between July 1 and October 31, 2003, indicated that this corrective action
was not effective. Revenue officers are still not always properly notifying taxpayers of
their appeal rights. Specifically, in 5 of 40 cases reviewed, we determined that revenue
officers issued manual levies to seize the assets of taxpayers who had not been notified
of their appeal rights. We recommended the Commissioner, Small Business/
Self-Employed Division, reconsider requiring managers to review all manual levies
prepared by a revenue officer.
Management’s Response: While IRS management agreed that taxpayers’ rights must
be protected, they did not agree with our recommendation to have group managers
approve all manual levies prepared by revenue officers. They expressed concern about
the impact on field employees that further increasing the oversight of enforcement
action could have. IRS management also indicated they believe the errors evidence a
training issue.
To help address these concerns and reinforce the existing procedures, the IRS issued
an ICS Alert on March 5, 2004. This Alert reminded employees to ensure taxpayer
rights are protected whenever a manual levy is issued. Management’s complete
response to the draft report is included as Appendix V.
Office of Audit Comment: We recognize the IRS’ caution in implementing any
managerial action it believes may inhibit effective enforcement action by revenue
officers. However, we also recognize the importance of the RRA 98 provision requiring
that taxpayers be properly advised of their appeal rights prior to asset seizure through
levy action. We hope the IRS’ issuance of the ICS Alert reminding revenue officers that
all notice requirements must be satisfied before a manual levy is issued will suffice to
ensure taxpayer rights are adequately safeguarded. While we still believe our
recommendation is worthwhile, we do not intend to elevate our disagreement
concerning it to the Department of the Treasury for resolution. We will continue to



4
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the IRS field
offices.
5
  The Internal Revenue Service Does Not Have Controls Over Manual Levies to Protect the Rights of Taxpayers
(Reference Number 2003-40-129, dated June 2003).
                                            3

closely monitor this issue during future mandatory reviews of the IRS’ collection
activities.
Copies of this report are also being sent to IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Parker
Pearson, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (410) 962-9637.
           Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                               When Manual Levies Are Issued




                                                  Table of Contents


Background ............................................................................................... Page 1
Controls Implemented to Protect Taxpayer Rights During the
Issuance of Systemic Levies Are Operating Effectively............................. Page 2
Revenue Officers Are Still Issuing Some Manual Levies Without
Properly Notifying Taxpayers of Their Appeal Rights ................................ Page 4
         Recommendation 1: ........................................................................ Page 6

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures ............................................................ Page 12
Appendix V – Management’s Response to the Draft Report ..................... Page 13
        Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                            When Manual Levies Are Issued

                                When taxpayers refuse to pay delinquent taxes, the Internal
Background
                                Revenue Service (IRS) has authority to work directly with
                                financial institutions and other third parties to seize
                                taxpayers’ assets. This action is commonly referred to as a
                                “levy.” The IRS Restructuring and Reform Act of 1998
                                (RRA 98)1 requires the IRS to notify taxpayers at least
                                30 days before initiating a levy action, to give taxpayers an
                                opportunity to formally appeal the proposed levy.
                                The RRA 98 also requires the Treasury Inspector General
                                for Tax Administration (TIGTA) to annually verify whether
                                the IRS is complying with the new provisions. This is the
                                sixth year that the TIGTA has evaluated the controls over
                                levies.
                                Two operations within the IRS issue levies to collect
                                delinquent taxes:
                                    •   The Automated Collection System (ACS), where
                                        Customer Service Representatives (CSR) contact
                                        delinquent taxpayers by telephone to collect unpaid
                                        taxes and secure tax returns.
                                    •   The Collection Field function (CFf), where revenue
                                        officers contact delinquent taxpayers in person as the
                                        final step in the collection process. Field contact
                                        becomes necessary when the ACS does not resolve
                                        the tax matter. Delinquent cases that are assigned to
                                        revenue officers in the IRS field offices are
                                        controlled and monitored with the Integrated
                                        Collection System (ICS).
                                Both operations issue two types of levies: systemically
                                generated levies and manual levies. Previous TIGTA
                                reports have recognized the IRS has significantly improved




                                1
                                 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                               Page 1
           Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                               When Manual Levies Are Issued

                                   controls over the issuance of systemically generated levies.2
                                   However, the TIGTA’s June 2003 report did identify that
                                   additional controls are needed over manual levies issued by
                                   revenue officers.3
                                   This review was conducted at the Small Business/
                                   Self-Employed (SB/SE) Division Headquarters in
                                   New Carrollton, Maryland, and at Compliance Area 3 and
                                   11 Offices, headquartered in Philadelphia, Pennsylvania,
                                   and Denver, Colorado, respectively. We conducted the
                                   audit from October 2003 through February 2004 in
                                   accordance with Government Auditing Standards.
                                   Detailed information on our audit objective, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   Systemic controls in both the ACS and ICS are effective to
Controls Implemented to Protect
                                   ensure taxpayers receive timely notification of their appeal
Taxpayer Rights During the
                                   rights.
Issuance of Systemic Levies Are
Operating Effectively              ACS controls
                                   The first step in the collection process involves mailing
                                   taxpayers a series of notices asking for payment of
                                   delinquent taxes. If taxpayers do not comply, the majority
                                   of the accounts are forwarded to an ACS Call Center where
                                   CSRs contact taxpayers by telephone to resolve their
                                   accounts. If accounts cannot be resolved, CSRs have the
                                   authority to issue levies.
                                   Virtually all levies issued by CSRs are generated through
                                   the ACS’ automated system. This automated system
                                   contains a control, developed to comply with the RRA 98,


                                   2
                                     The Internal Revenue Service Does Not Have Controls Over
                                   Manual Levies to Protect the Rights of Taxpayers (Reference
                                   Number 2003-40-129, dated June 2003), The Internal Revenue Service
                                   Has Improved Controls Over the Issuance of Levies, But More Should
                                   Be Done (Reference Number 2002-40-176, dated September 2002), The
                                   Internal Revenue Service Complied With Levy Requirements (Reference
                                   Number 2001-10-113, dated July 2001), and The Internal Revenue
                                   Service Has Significantly Improved Its Compliance With Levy
                                   Requirements (Reference Number 2000-10-150, dated September 2000).
                                   3
                                     The Internal Revenue Service Does Not Have Controls Over
                                   Manual Levies to Protect the Rights of Taxpayers (Reference
                                   Number 2003-40-129, dated June 2003).
                                                                                              Page 2
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued

                        that compares the date the taxpayer was notified of the
                        pending levy with the date requested for the actual levy. If
                        there are fewer than 30 days between the dates, the system
                        will not generate a levy. This control is designed to ensure
                        taxpayers have been notified at least 30 days prior to the
                        levy and have been informed of their appeal rights for any
                        systemically generated levy.
                        We tested the effectiveness of this control by reviewing a
                        random sample of 30 systemically generated levies issued
                        by the ACS between July 1 and October 31, 2003. All
                        30 taxpayers were timely notified of their appeal rights.
                        During fieldwork, we also tested the control by requesting a
                        levy on a live case for which fewer than 30 days had elapsed
                        since the final notice date. The system would not issue the
                        levy. Based on these results, we concluded that the
                        systemic controls over levies issued in the ACS Call Centers
                        effectively protect taxpayers’ appeal rights.
                        ICS controls
                        Many times, notices and telephone calls to taxpayers do
                        not successfully resolve delinquent accounts, and cases have
                        to be assigned to revenue officers in CFf offices for
                        face-to-face contact with taxpayers. Cases assigned to
                        revenue officers are controlled on the ICS. Revenue
                        officers use the ICS to record collection activity on
                        delinquent cases and generate certain enforcement actions
                        such as levies.
                        The IRS installed a control in the ICS similar to the control
                        in the ACS that prevents a levy from being issued unless
                        taxpayers have received 30 days notice and been informed
                        of their appeal rights. If fewer than 30 days have elapsed
                        since the final notice date, the system will not generate a
                        levy.
                        We tested the effectiveness of this systemic control by
                        reviewing a random sample of 30 ICS cases that had levies
                        issued between July 1 and October 31, 2003. All 30 of the
                        taxpayers had received notification of their appeal rights at
                        least 30 days prior to the levy. Next, we tested the control
                        by attempting to generate a levy on a live case for which
                        fewer than 30 days had elapsed since the final notice date.
                        The system would not issue the levy.

                                                                               Page 3
            Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                                When Manual Levies Are Issued

                                     Finally, we tested another systemic control by attempting to
                                     alter a critical date in the ICS history section. We could not
                                     alter the date to generate the levy. Based on these results,
                                     we concluded that the systemic controls over levies issued
                                     by revenue officers in CFf offices effectively protect
                                     taxpayers’ appeal rights.
                                     While the IRS has done an effective job of implementing
                                     controls over systemic levies generated by the ACS and
                                     ICS, additional controls are needed over manual levies
                                     issued by revenue officers.
                                     The second type of levy that both CSRs and revenue
Revenue Officers Are Still Issuing
                                     officers can issue is the manual levy. That is, the levy is
Some Manual Levies Without
                                     issued outside of the ACS and ICS automated processes and
Properly Notifying Taxpayers of
                                     is not subject to the systemic controls.
Their Appeal Rights
                                     Because manual levies are issued outside of the ACS and
                                     ICS automated processes, an automated audit trail for these
                                     actions is not produced. Therefore, it is impossible to
                                     reliably determine the exact number of manual levies that
                                     were issued by either CSRs or revenue officers during our
                                     review period. IRS management did inform us that they
                                     believe manual levies are issued infrequently.
                                     Although the ACS CSRs primarily issue levies systemically,
                                     they also issue manual levies under certain circumstances,
                                     such as levies on Individual Retirement Accounts and
                                     jeopardy situations.4 Manual levies require the same
                                     advance notification of the taxpayer as systemic levies
                                     except in cases involving jeopardy situations. IRS
                                     procedures require that manual levies issued by CSRs be
                                     reviewed and approved by a manager prior to the levy being
                                     issued. We consider this managerial review to be a strong
                                     control.
                                     Revenue officers similarly issue levies systemically, in most
                                     cases, through the ICS. They are also authorized to issue a
                                     manual levy on any case as needed. While managerial
                                     approval is mandatory for manual levies issued by ACS



                                     4
                                       A jeopardy situation occurs when the IRS is concerned that the
                                     taxpayer may attempt to hide or dispose of assets to prevent enforced
                                     collection actions.
                                                                                                     Page 4
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued

                        employees, no review or approval is required when revenue
                        officers issue a manual levy.
                        We believe there is a high risk associated with these manual
                        levies because the IRS has not implemented any controls to
                        ensure taxpayers’ appeal rights are protected as required by
                        the RRA 98. Our June 2003 report discussed the fact that
                        revenue officers sometimes issued manual levies to
                        taxpayers who were not properly notified of their appeal
                        rights. We recommended the IRS require managers to
                        review and approve all manual levies prepared by revenue
                        officers in order to ensure taxpayers are properly advised of
                        their appeal rights. The IRS declined to implement this
                        recommendation because it believed it would impede
                        prompt enforcement action. The IRS did issue a
                        memorandum on June 20, 2003, reminding revenue officers
                        that proper notification must be given to a taxpayer before a
                        manual levy is issued.
                        We analyzed the ICS case inventory assigned to revenue
                        officers to identify any manual levies issued between July 1
                        and October 31, 2003. Because there is no automated audit
                        trail produced for manual levies, we analyzed case history
                        comments for any references to a manual levy. Using this
                        methodology, we identified 40 cases in which a manual levy
                        was issued to seize taxpayers’ assets. In 5 of the 40 cases,
                        the revenue officer did not properly notify the taxpayers of
                        their appeal rights before issuing the manual levies. None
                        of the five manual levies involved jeopardy situations.
                        Because of the imprecise nature of revenue officer case
                        history entries, there could have been significantly more
                        manual levies issued during our review period than the
                        40 we identified.
                        Not offering appeal rights to taxpayers prior to issuing
                        levies is a potential Section 1203 violation5 of the RRA 98
                        and could result in the revenue officer being terminated for
                        misconduct. We have referred the five cases to the TIGTA
                        Office of Investigations for further evaluation.




                        5
                            Section 1203 (Termination of employment for misconduct).
                                                                                       Page 5
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued

                        Recommendation

                        1. The Commissioner, SB/SE Division, should reconsider
                           developing and implementing controls over manual
                           levies issued by revenue officers working in the IRS
                           field offices to ensure taxpayers are properly offered
                           their appeal rights. At a minimum, the Commissioner,
                           SB/SE Division, should require that manual levies be
                           reviewed and approved by a manager. This would help
                           ensure the 30-day requirement has been met before levy
                           action.
                        Management’s Response: While IRS management agreed
                        that taxpayers’ rights must be protected, they did not agree
                        with our recommendation to have group managers approve
                        all manual levies prepared by revenue officers. They
                        expressed concern about the impact on field employees that
                        further increasing the oversight of enforcement action could
                        have. IRS management also indicated they believe the
                        errors evidence a training issue.
                        To help address these concerns and reinforce the existing
                        procedures, the IRS issued an ICS Alert on March 5, 2004.
                        The Alert reminded employees to ensure taxpayer rights are
                        protected whenever a manual levy is issued. It also included
                        a reminder that the final notice issued by the campuses6 does
                        not contain the appropriate due process notification.
                        Office of Audit Comment: We recognize the IRS’ caution
                        in implementing any managerial action it believes may
                        inhibit effective enforcement action by revenue officers.
                        However, we also recognize the importance of the RRA 98
                        provision requiring that taxpayers be properly advised of
                        their appeal rights prior to asset seizure through levy action.
                        We hope the IRS’ issuance of the ICS Alert reminding
                        revenue officers that all notice requirements must be
                        satisfied before a manual levy is issued will suffice to


                        6
                         The data processing arm of the IRS. The campuses process paper and
                        electronic submissions, correct errors, and forward data to the
                        computing centers for analysis and posting to taxpayer accounts.




                                                                                    Page 6
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued

                        ensure taxpayer rights are adequately safeguarded. We will
                        continue to closely monitor this issue during future
                        mandatory reviews of the IRS’ collection activities.




                                                                            Page 7
           Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                               When Manual Levies Are Issued

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
Opportunity for Hearing Before Levy.1 To accomplish our objective, we:
I.      Determined whether the IRS was maintaining sufficient automated controls and
        procedures to ensure taxpayers had been advised of their right to a hearing at least
        30 days prior to any levy action.
        A. Performed a walk-through of two Automated Collection System (ACS)2 Call Centers
           and four Collection Field function offices and evaluated procedures and controls over
           due process notices.
        B. Tested whether systemic controls in the ACS and the Integrated Collection System
           (ICS)3 were preventing levies from being issued in fewer than 30 days from the final
           notice date.
        C. Tested whether IRS employees could modify the final notice date in the ACS and
           ICS.
        D. Selected a random sample of 30 ICS levies from the population of 110,670 levies
           issued between July 1 and October 31, 2003, from the ICS database of open cases.
           We analyzed Master File4 transcripts and the ICS record history for the sample cases
           selected and verified whether taxpayers had been advised of their right to a hearing at
           least 30 days prior to any levy action. We did not use statistical sampling because,
           based on prior years’ testing, we did not anticipate finding any errors; consequently,
           we would not need to project our results.
        E. Selected a random sample of 30 ACS levies from the population of 510,288 levies
           issued between July 1 and October 31, 2003, from the ACS database of open cases.
           We analyzed Master File transcripts and the ACS record history for the sample cases
           selected and verified whether taxpayers had been advised of their right to a hearing at

1
  26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax
Relief Act of 2001, Pub. L. No. 107-134, 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of
2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the IRS field
offices.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 8
        Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                            When Manual Levies Are Issued

         least 30 days prior to any levy action. We did not use statistical sampling because,
         based on prior years’ testing, we did not anticipate finding any errors; consequently,
         we would not need to project our results.
II.   Determined whether manual levies issued by revenue officers complied with legal
      guidelines in 26 U.S.C. § 6330.
      A. Identified any references to manual levies issued between July 1 and
         October 31, 2003, by querying the narrative history text field of the ICS open case
         inventory. We identified a population of 40 manual levies that were issued during
         our review period and included all of them in our review.
         1. Requested complete case history files (history query) for all cases containing
            references to manual levies identified in step II.A.
         2. Reviewed case history documentation and identified whether a revenue officer
            had issued a manual levy.
         3. Analyzed Master File transcripts and ICS history files to determine whether
            taxpayers were provided at least 30 days notice prior to any levy action initiated
            by the IRS.




                                                                                         Page 9
         Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                             When Manual Levies Are Issued

                                                                                 Appendix II


                           Major Contributors to This Report

Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard Dagliolo, Director
Anthony J. Choma, Audit Manager
Cynthia Dozier, Senior Auditor
Mildred Rita Woody, Senior Auditor
Seth Siegel, Auditor




                                                                                       Page 10
         Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                             When Manual Levies Are Issued

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 11
            Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                                When Manual Levies Are Issued

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Taxpayer Rights and Entitlements – Actual; five taxpayers did not receive notice of their
        appeal rights before the Internal Revenue Service (IRS) took levy action (see page 4).
Methodology Used to Measure the Reported Benefit:
We analyzed (using computerized queries) the Integrated Collection System1 case inventory of
delinquent taxpayers assigned to revenue officers and identified 40 manual levies issued between
July 1 and October 31, 2003. Since the IRS does not monitor or record the use of manual levies,
we were unable to determine the total number of manual levies actually issued by revenue
officers working in field offices. Because the population of manual levies is unknown, the
findings of our case review cannot be projected.




1
 An automated system used to control and monitor delinquent cases assigned to revenue officers in the IRS field
offices.

                                                                                                          Page 12
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued

                                                                 Appendix V


          Management’s Response to the Draft Report




                                                                        Page 13
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued




                                                                        Page 14
Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected
                    When Manual Levies Are Issued




                                                                        Page 15
